1197

filed
BEC 1 7 2019

IN THE
SUPREME COURT OF THE UNITED STATES

GwanJun Kim,
Petitioner,
vs.
City of Ionia, et al.,
Respondents,
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit No. 19-1389

PETITION FOR WRIT OF CERTIORARI

GwanJun Kim
10133 Lapeer Rd Apt 316
Davison, MI 48423-8188
(616)902-4344

QUESTION(S) PRESENTED
In this case THE PETITION for that “a
United States court of appeals has entered a
decision in conflict with the decision of’
“Complaint in this action under Rule 9(b) would be
subject to the relaxed standard that is applied to
claims where evidence “lies within [Defendants’]
exclusive possession” Id.; U.S. ex rel.
Tamanaha,2011 WL 3423788 at *2; (citing United
States ex rel. Lee v. SmithKline Beecham, Inc.,
245F.3d 1048, 1052 (9th Cir. 2001)); United States
ex rel. Franklin, 147 F. Supp. 2d at 49.
The panel was applied wrong that “Rule
9(b) [§ 10(b)] of the Securities Exchange Act of 1934
See. Cent. Bank of Denver, N.A. v. First Interstate
Bank of Denver, N.A., 511 U.S. 164, 190 (1994)
Held: A private plaintiff may not maintain an
aiding and abetting suit under § 10(b). Pp.170-192.]
“it does not create a federal cause of action for
fraud and dismissed the case ” Id. Petitioner
complaint is not § 10(b).
Therefore, Petitioner asks this Court to
address RETROACTIVELY APPLICABLE TO case
that are on collateral review.
LIST OF PARTIES
[X ] All parties do not appear in the caption of the
cover page. A list of all parties to the proceeding in
the court whose judgment is the subject of this
petition is as follows:
City of Ionia; Jennifer Skorka; Brandon Anderson;
Troy Thomas; Jason Eppler ;
114 N Kidd St Ionia, MI 48846

ii

David K. Otis (P31627)Plunkett Cooney
325 E. Grand River Ave, Ste 250
East Lansing, MI 48823

iii

RELATED CASES
State of Michigan 64A District criminal Court Case;
police ticket 12494IT1 and IT 2
State of Michigan Circuit Court 2012K-29547-AV
See. Appendix F, G, H
State of Michigan Court of appeal no 334981
State of Michigan Supreme Court no. 155558
The United State District Court Western Michigan
case # Case No. l:12-cv-01195-GJQ (Kim I
Court).The United States Court of Appeals for the
Sixth Circuit Kim v. City of Ionia No. 13-2084(6th
Cir. Apr.29, 2014), 15-01178, 18-0650,18-1974 (6*
Cir. January 3, 2019)

iv

TABLE OF CONTENTS
I.
II.

QUESTION(S) PRESENTED

1

PETITION FOR WRIT OF CERTIORARI ...1

III.

OPINIONS BELOW

2

IV.

JURISDICTION

2

V.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED.......................

2

VI.

STATEMENT OF THE CASE

3

VII.

REASONS FOR GRANTING THE
PETITION.......................................

VIII. CONCLUSION,
IX.

CERTIFICATE OF COMPLIANCE

11
14
15

INDEX TO APPENDICES
APPENDIX A Sixth Circuit denied the Motion for
rehearing on November 4, 2019
APPENDIX B Sixth Circuit Affirmed the district
court’s that applied wrong law that “Rule 9(b) [§
10(b)] of the Securities Exchange Act of 1934 See.
Cent. Bank of Denver, N.A. v. First Interstate Bank
of Denver, N.A., 511 U.S. 164, 190 (1994) Held: A
private plaintiff may not maintain an aiding and
abetting suit under § 10(b). Pp. 170-192.], it does
not create a federal cause of action for fraud. See.
Order

APPENDIX C District court ordered that “his are
not estopped or otherwise improperly before this
court and dismissed” district order
APPENDIX D. The Sixth Circuit 13-2084 affirmed
dismiss on “Additionally, as to Kim’s allegation of
judicial fraud, adverse ruling[ refused and no
address Federal Rules of Civil Procedure 55(a)
requires “the clerk must enter the party's
default,” ]by a court almost never establish bias or
prejudice. See. Liteky v. United States, 540 U.S. 540,
555(1994)” See. p.3 Order. This is a conspiracy.
APPENDIX E The Sixth Circuit 18-1974 denied on
dismiss on Rule 60(b) appeal"unusual and extreme
situation[The Cause of action Fraud I to VI where
principles of equity mandate relief.” Olle v. Henry &
Wright Corp., 910 F.2d 357, 365 (6th Cir. 1990)
that Respondents involved that the panel was
applied that wrong law that “Rule 60(b) does not
allow a defeated litigant a second chance to
convince the court to rule in his or her favor...and
dismiss the case” Kim v. City of Ionia, No. 181974(6th Cir. January 3, 2019) See. order p.3
APPENDIX F Petitioner obtained State of 8th
Circuit, Clerk of Court was entered enter default
MCR 2.603(A) See. at The United State District
Court Western Michigan case # Case No. l:12-cv01195-GJQ docket no. 78 Attachments: # 2
APPENDIX G State of Michigan Judicial Circuit
Court issued Summons and Complaint on October
9, 2012.

vi

APPENDIX H Defendants answered to Complaint
at federal court on November 5, 2012. See. Kim I
Docket no.4. Defendants had been default State
Court and.the U.S. District Court.

1

No.
IN THE
SUPREME COURT OF THE UNITED STATES

GwanJun Kim,
Petitioner,
vs.
City of Ionia, et al.,
Respondents
On Petition for a Writ of Certiorari
To the United States Court of Appeals
For the Sixth Circuit No. 19-1389

PETITION FOR WRIT OF CERTIORARI

GwanJun Kim
10133 Lapeer Rd Apt 316
Davison, MI 48423-8188
(616)902-4344

2

II. PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of
certiorari issue to review the judgment below.
III. OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeal
appears at Appendix A to the petition and is
[x] is unpublished.
IV. JURISDICTION
[X] For cases from federal courts:
The date on which is United States Court of
Appeals decided my case was on September 17,
2019.
[x] A timely petition for rehearing was denied by
the United States Court of Appeals on the following
date: November 4, 2019 and copy of the order
denying rehearing appears at Appendix A .
The jurisdiction of this Court is invoked under 28
U.S.C. § 1254(1).
V. CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Federal Rules of Civil Procedure Rule 9.
Pleading Special Matters
In this Case of defendants who violates
Federal Rules of Civil Procedure Rule 9(b) Fraud or
Mistake.

3

“Rule 9(b) is simply applicable in case where
a complaint does allege fraud or mistake See.
Concha62 F.3d at 1503 and ““the Complaint in this
action under Rule 9(b) would be subject to the
relaxed standard that is applied to claims where
evidence “lies” within [Defendants”] exclusive
possession” and specific citations to each instance
of fraudulent conduct would not be required””. Id.:
U.S. ex rel. Tamanaha, 2011 WL 3423788 at *2;
(citing United States ex rel. Lee v. SmithKline
Beecham, Inc., 245 F.3d 1048, 1052 (9th Cir. 2001));
United States ex rel. Franklin, 147 F. Supp.2d at
49.
The Sixth Circuit Court of appeal wrong that
“Rule 9(b) [§ 10(b)] of the Securities Exchange Act of
1934 See. Cent. Bank of Denver, N.A. v. First
Interstate Bank of Denver, N.A., 511 U.S. 164, 190
(1994) Held: A private plaintiff may not maintain
an aiding and abetting suit under § 10(b). Pp. 170192.], it does not create a federal cause of action for
fraud. See. Order Appendix B.
Therefore, Petitioner asks this Court to
address RETROACTIVELY APPLICABLE TO case
that are on collateral review.
VI. STATEMENT OF THE CASE
On 2019 petitioner filed law suit against
defendants violated Federal Rules of Civil
Procedure, Rule 9(b)[lies] “fraud or mistake” at the
district court. The Cause of action as follow:
Cause of action I “Fraud” 9(b)
The District Court Western Michigan case #

4

Case No. l:12-cv-01195-GJQ appears (.Kim I), the
State of Michigan 8th Circuit, Clerk of Court was
entered enter default against City of Ionia MCR
2.603(A). See APPENDIX F. The U.S. district court
refused comply the Rule 55(a) “requires “the clerk
must enter the party's default” The evidence
Procedural history shows. See.
A. The State 8th Circuit Court Summons issued on
October 9, 2012. See. Appendix G. or Kim I
Court docket no. 78 Attachments: # 2.
B. Defendants answered to Complaint at Kim I
federal court on November 5, 2012. See.
Appendix H. The defendants was not Answers
within 21days Federal Rule of Civil Procedure
12(a)(l)(A)(i) and State Court.
C. Plaintiff obtained State of 8th Circuit, Clerk of
Court was entered enter default MCR 2.603(A)
for each named defendant; Jennifer Skorka ;
and Brandon Anderson .; Thomas Troy Thomas;
Jason Eppler ;City of Ionia. See. Appendix F. or
Kim I docket no. 78 Attachments: # 2.
Respondents have engaged in conduct that
the district court refused and no address and no
comply the Rule 55(a) “requires “the clerk must
enter the party's default”. This is a cause of action
and defendants are violated Federal Rules of Civil
Procedure, Rule 9(b) “constituting fraud or mistake”
at the Kim I, district court. The Sixth Circuit 132084 affirmed dismiss on “Additionally, as to Kim’s
allegation of judicial fraud, adverse ruling[refused
and no address, and no comply the Rule 55(a)
“requires “the clerk must enter the party's default”]

5

“by a court almost never establish bias or
prejudice. See. Liteky v. United States, 540 U.S. 540,
555(1994)” See. p.m Appendix D.
The panel was applied that wrong law and
Respondents made case law that when the Federal
Court record appears that defendants had been
default, the court to allow refused, no address, not
comply the Federal Rules of Civil Procedure 55(a)
requires “the clerk must enter the party's default”.
But the Court granted defendants summary
judgment and denied Second, Petitioner’s Motion to
remand State Court because State Court entered
entry of default. This is defendants violated of the
Federal Rules of Civil Procedure Rule 9(b) Fraud or
mistake; conditions of mind and evidence ““lies”
within [Defendants’] exclusive possession”” Id.; U.S.
ex rel. Tamanaha,2011 WL 3423788 at *2; (citing
United States ex rel. Lee v. SmithKline Beecham,
Inc., 245F.3d 1048, 1052 (9th Cir. 2001)); United
States ex rel. Franklin, 147 F. Supp. 2d at 49.
Cause of action II “Fraud” 9(b)
The defendants were obtained the Kim i,
district court refused, and no address, not comply
the Statute 28 U.S. Code § 1738 “shall have the
same full faith and credit[Plaintiff obtained The
State of 8th Circuit, Clerk of Court was entered
enter default MCR 2.603(A) See. Appendix F]”.The
Sixth Circuit 13-2084 wrong affirmed dismiss on
“Additionally, as to Kim’s allegation of judicial
fraud, adverse ruling[refused, and no address the
Statute 28 U.S. Code § 1738 requires “shall have
the same full faith and credit”[Plaintiff obtained
The State of 8th Circuit, Clerk of Court was entered
enter default MCR 2.603(A)]”by a court almost

6

never establish bias or prejudice. See. Liteky v.
United States, 540 U.S. 540, 555(1994)” See. page,
m Appendix D This is a defendants violated
Federal Rules of Civil Procedure, 9(b) fraud or
mistake” at the Court.
Cause of action III “Fraud” 9(b)
The defendants were obtained the Kim I,
district court refused comply with Statute 28 U.S.
Code § 1446(b)(3). The 28 U.S. Code § 1446(b)(3)
requires “[T]he initial pleading [On October 29,
2012 Defendants failed to answer to complaint
“within 21days” State Court MCR 2.108(A)(1) and
State of 8th Circuit, Clerk of Court was entered
enter default MCR 2.603(A)] are not removable” is
REMOVABLE and “by a court almost never
estabhsh bias or prejudice. See. Liteky v. United
States, 540 U.S. 540, 555(1994)” See. p.m Appendix
D.
Cause of action IV “Fraud” 9(b)
The defendants were obtained the Kim I,
district court refused comply with Statute 28 U.S.C.
§ 1332. The Statute 28 U.S.C. § 1332 required the
U.S. District court lacked subject matter THAT
subject matter jurisdiction the parties were nondiverse 28 U.S.C. § 1332. This is defendants
violated Federal Rules of Civil Procedure, Rule 9(b)
fraud or mistake”
Cause of action V “Fraud” 9(b)
The defendants were obtained the Kim I,
district court refused comply the Statute 28 U.S.C.

7

§ 1331. “Kim also, contends that district court erred
denying his motion to remand the case to state
court. He asserts that the instant civil action
constituted an appeal of his criminal[appeal State
of Michigan Circuit.Court 2012K-29547AV]proceeding that should not have been removed
to the district court. The respondents obtained
“However, this assertion is belied by record” Order
p.4 Sixth circuit No 13-2084 See. Appendix D page
o. The Court was belied by Respondents.
The Statute 28 U.S.C. § 1331 requires are
the district court has no jurisdiction and not
removal because the U.S. district is not criminal
appeal, and civil appeal court for the State of
Michigan District Court.
Petitioner’s assertion WAS NOT “belied by
record”. The defendants were obtained the Kim I,
district court that “removal was proper( Kim I, Id
Dkt. 98-1) which is Respondents made case law
that the State criminal appeal case and civil claim,
in this Case, the U.S. civil district has a jurisdiction
because the U.S. civil district is a State Criminal
appeal court. Kim v. City of Ionia No. 13-2084(6th
Cir. Apr.29, 2014). This is fourth, of cause of action
that defendants violated Federal Rules of Civil
Procedure, Rule 9(b) constituting fraud or mistake”
Cause of action VI “Fraud” 9(b)
The Court was intentionally belied by
respondents, the court received the made-up police
video by defendants. The video, the U.S District
Court For the Western District of Michigan Case no.
l:12:cv-01195-GJQ Docket no 35 appears that

8

-

A.

The police video has NEVER been shows
that “the rear window”. See. Police video,
p.l.Defendants’ brief in support of
defendants’ Motion for summary of judgment.

B.

The police video has NEVER been shows
that the “rear window of the pick-up was
tinted”. See. Police video, p.l.Defendants’
brief in support of defendants’ Motion for
summary of judgment.

C.

The police video has NEVER been shows
that “the rear window of the pick-up was
tinted and you NEVER can see who is
driving the vehicle”. See. Police video,
p. 1 .Defendants’ brief in support of
defendants’ Motion for summary of judgment.

D.

The police video has NEVER been shows
that “City of Ionia observed a green,
Chevrolet pick-up truck at the Corner of
Dexter and Main in the City”p.l.Defendants’
brief in support of defendants’ Motion for
summary of judgment. See. Police video.

E.

The police video has NEVER been shows
that “City of Ionia observed Kim’s, vehicle at
the corner Dexter and Main (id. at 4-5) p.2
Exhibit D Opinion. See. Police video,
p.l.Defendants’ brief in support of
defendants’ Motion for summary of judgment.

F.

The police video has NEVER been shows
that “Plaintiff saw the police car at the traffic
light at eastbound Washington Street and M66.”p.3 Defendants’ Response Brief opposing
plaintiffs Motion for summary judgment.

'■>-

9

The District court was intentionally Belied
by defendants that “there is no evidence in the
record that officer Anderson and Skorka targeted
Kim because of his race or nation origin. There is
no indication that either of them had any idea who
was driving the vehicle until they pulled it over.
Accordingly, Kim’s selective enforcement claim lack
merit”.
It is important notes that the Kim I, District
Court Judge was unable to respond or address to
the Evidence “lies [Cause of action, Fraud I to VI.]
at all, its response to the other points is unavailing
that “ Defendants’ Motion for Summary
Judgment(dkt. #34) is granted, and Plaintiffs
Claims dismissed with prejudice. And Plaintiffs
Second Motion to Remand and Plaintiffs Motion for
summary judgment are denied.
Petitioner next filed court of appeal that the
panel was unable to respond or address to the
Cause of action Fraud I to VI at all, its response to
the other points is unavailing that the Kim I Sixth
Circuit Penal No. 13-2084(6th Cir. Apr.29, 2014)
finds that “Kim’s allegation of judicial fraud,
adverse ruling [ refused comply “the clerk must
enter the party's default,” and refused the Statute
28 U.S. Code § 1738 requires “shall have the same
full faith and credit Plaintiff obtained The State of
8th Circuit, Clerk of Court was entered enter
default MCR 2.603(A); and refused Statute 28 U.S.
Code §1446(b)(3); Statute 28 U.S.C. § 1333; Statute
28 U.S.C. § 1331] by a court almost never establish
bias or prejudice. See. Liteky v. United States, 540
U.S. 540, 555(1994)” The Sixth Circuit does not
care the “lies [Cause of action Fraud I to VL]within
[Defendants’] exclusive possession” Id

10

Petitioner next filed a timely Rule 60(b)
appeal at Sixth circuit court,"unusual and extreme
situation [The Cause of action fraud I to VI ]are
where principles of equity mandate relief.” Olle v.
Henry & Wright Corp., 910 F.2d 357, 365 (6th Cir.
1990) that the court finds that “Rule 60(b) does not
allow a defeated litigant a second chance to
convince the court to rule in his or her favor... and
dismiss the case” Kim v. City of Ionia, No. 181974(6th Cir. January 3, 2019) see. page v Appendix
E.
Petitioner next filed a timely complaint
[cause of action I to VI] at different Kim II, district
court that defendants violated Federal Rules of
, Civil Procedure, 9(b) fraud or mistake” at the
district court. The district court finds that
“Moreover, to the extent his claims are not
estopped otherwise improperly before this Court
[District Court]” (Order p.2 Dkt 4) and dismissed
the case. See. Appendix C.
Petitioner next filed a timely appeal at Sixth
circuit court, which he requests the claim Rule 9(b)
special damages”(g),the court finds that The Court
of appeal finds that “9(b)[10b] it does not create a
private right of action. See. Cent. Bank of Denver,
N.A. v. First Interstate Bank of Denver, N.A., 511
U.S. 164, 190 (1994)(“ We have been quite reluctant
to infer a private right of action from a criminal
prohibition alone ...” This leaves Kim with leg to
stand on, so we must dismiss.” See. Appendix B.
The Sixth Circuit does not care the Evidence ““lies”
[Cause of action Fraud I to VI.]within [Defendants’]
exclusive possession”” Id
Therefore, Petitioner asks this Court to
address RETROACTIVELY APPLICABLE TO case
that are on collateral review.

11

VII. REASONS FOR GRANTING
THE PETITION
To Avoid Erroneous the Sixth Circuit court
finds that “Rule 9(b) [10(b)] cause of action I to VI,
“lies”] it does not create a federal cause of action for
fraud” and affirmed dismiss this case. See.
Appendix B.
This Court should Clarify the ““Rule 9(b)
would be subject to the relaxed standard that is
applied to claims where evidence “lies” within
[Defendants”] exclusive possession” and specific
citations to each instance of fraudulent conduct
would not be required””. Id.: U.S. ex rel. Tamanaha,
2011 WL 3423788 at *2; (citing United States ex rel.
Lee v. SmithKline Beecham, Inc., 245 F.3d 1048,
1052 (9th Cir. 2001)); United States ex rel. Franklin,
147 F. Supp.2d at 49.
In this case THE PETITION for that
“United State Sixth Circuit court of appeals has
entered a decision in conflict with the decision of’
[Rule 10(a)]“Complaint in this action under Rule
9(b) would be subject to the relaxed standard that
is applied to claims where evidence “lies” within
[Defendants’] exclusive possession” Id.; U.S. ex rel.
Tamanaha,2011 WL 3423788 at *2; (citing United
States ex rel. Lee v. SmithKline Beecham, Inc.,
245F.3d 1048, 1052 (9th Cir. 2001)); United States
ex rel. Franklin, 147 F. Supp. 2d at 49.
The panel was applied wrong that “Rule
9(b) [§ 10(b)] of the Securities Exchange Act of 1934
See. Cent. Bank of Denver, N.A. v. First Interstate
Bank of Denver, N.A., 511 U.S. 164, 190 (1994)
Held: A private plaintiff may not maintain an
aiding and abetting suit under § 10(b). Pp.170-192.]
“it does not create a federal cause of action for

12

fraud and dismissed the case”Id. Petitioner
complaint is not § 10(b). The Sixth circuit panel
knows that Petitioner complaint is Rule 9(b) lies.
Furthermore, Petitioner has been show that
petitioner lost litigation, Caused by unlawful
conduct, the panel was applied that wrong law and
Respondents made case law that when State of
Michigan 8th Circuit, Clerk of Court was entered
enter default MCR 2.603(A) that defendants have a
right remove to the federal court.
Also the Kim I, U.S. district court refused
with federal rules of civil procedure, 55(a) and (b)
default judgment and 28 U.S. Code § 1738; 28 U.S.
Code § 1446(b)(3); and 28 U.S.C. § 1332; 28 U.S.C. §
1331 Kim v. City of Ionia No. 13 2084(6th Cir.
Apr.29, 2014) This is evidence “lies [Cause of action
Fraud I to VI.]within [Defendants’] exclusive
possession” Id. This is a crime, shameful, this is not
acting like a Court and defendants violated of the
Federal Rules of Civil Procedure Rule 9(b) Fraud
or mistake; conditions of mind.
Petitioner asserts that it would be a
fundamental miscarriage of justice to leave the
erroneous enhancement in place when applied the
wrong law and when respondents “lie”
SIXTH CIRCUIT SPLIT
“The United States Kim I, Sixth Circuit
court of appeals has entered a decision in conflict
with the Rule of’, 55(a) and (b) default judgment
and statue 28 U.S. Code § 1738; 28 U.S. Code §
1446(b)(3); and 28 U.S.C. § 1332; 28 U.S.C. §
1331;and true casus of action and Kim v. City of
Ionia, Kim v. City of Ionia, No. 13-2084(6th Cir.
Apr.29, 2014). The Sixth Circuit was affirmed the

13

crime. Only Kim II, Sixth Circuit finds by
court-self, the “lies” Cause of action Ito VI “Fraud”
9(b) was “it does not create a federal cause of action
for fraud” and affirmed dismiss this case. See.
Appendix B. Petitioner believes that the Sixth
Circuit dishonestly finds that alleged the abused its
discretion Seven(7)years for the Respondents .
SHOULD BE RETROACTIVELY

V.

As clearly indicated above, The Sixth Circuit
No. 19-1389 panel incorrectly decide the facts, and
applied the wrong law Seven (7) YEARS;
Petitioner obtained an entry of default at
State Court criminal appeal and civil in this case.
The respondent city of Ionia, continue Criminally
charging Police ticket 12494IT1 and IT 2
approximately $5,000.00 and arrests him and
Respondents removed this case to the U.S. district
Civil court and granted the defendants’ motion for
summary judgment. This is a fraud. This is the
cause of action and defendants violated the Federal
Rules of Civil Procedure, Rule 9 (b) fraud and “lie
Therefore, Petitioner asks this Court to
address “complaint Rule 9(b) would be subject to
the relaxed standard that is applied to claims
where evidence “lies” [Cause of action Fraud I to
Vl.jwithin [Defendants’] exclusive possession” Id as
it applies to case on collateral review.

14

VIII. CONCLUSION
For the foregoing reason, Mr. Kim
respectfully requests that this court issue a writ of
certiorari to review the judgment. The petition for
writ of certiorari should be granted.
Respectfully submitted,
Dated: March 16, 2020 s/ gwaniunkim
GwanJun Kim
10133 Lapeer Rd Apt 316
Davison, MI 48423-8198

